BECKER GALLAGHE R
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE

I, Do1U1a J. Wolf, hereby certify that and original and 2 copies of the foregoing
Respondents' Opposition to Emergency Application for Stay in 20A18, Bradley Little et al. v.
Reclaim Idaho et. al, were sent via Next Day Service to the U.S. Supreme Court, and 1 copy was
sent via Next Day Service and email to the following parties listed below, this 21st day of July,
2020:
Deborah A. Ferguson
Counsel of Record
Craig H. Durham
Ferguson Durham, PLLC
223 N. 6th Street, Suite 325
Boise, ID 83 702
(208) 345-5183
daf@fergusondurham.com
chd@fergusondurham.com
Counsel for Respondents

Lawrence G. Wasden
Attorney General State of Idaho
Brian Kane
Assistant Chief Deputy
Megan A. Larrondo
Deputy Attorney General
Robert A. Berry
Deputy Attorney General
954 W. Jefferson - 2nd Floor
P. 0. Box 83720
Boise, ID 83720-0010
Tel: (208) 334-2400
robert.berry@ag.idaho.gov
megan.larrondo@ag.idaho.gov
Counsel for Applicants
II
II
II
BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

. (800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the foregoing is true and correct. This
Certificate is executed on July 21, 2020.

Becker Gallag er Legal Pu lishing Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

j

.....

